Department of Homeland Security
   Ofﬁce of Inspector General

            U.S. Customs and Border Protection's 

               Acquisition of 25 Acres of Land 

                  in Lordsburg, New Mexico 





OIG-11-06                                     November 2010
                                                           Office of Inspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528


                                                          Homeland
                        NOV - 1 2010                      Security

MEMORANDUM FOR:              The Honorable Alan Bersin
                             Commissioner
                             U.S. Customs and Border Protection
                            ~.             ~,~
FROM:                        Ric~kinner
                             Inspector General

SUBJECT:                     u.s. Customs and Border Protection's Acquisition of25
                             Acres of Land in Lordsburg, New Mexico

Attached for your information is our final letter report, U.S. Customs and Border
Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico. We
incorporated the formal comments from U.S. Customs and Border Protection in the
report.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibilities over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Should you have any questions, please call me, or your staff may contact Anne L.
Richards, Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
Background
As a result of a citizen complaint, the U.S. Department of Homeland Security, Office of
Inspector General, conducted a review of U.S. Customs and Border Protection’s (CBP)
purchase of 25 acres of land to construct a new Border Patrol facility in Lordsburg, New
Mexico. The complaint raised concerns that the price CBP paid for the land was
significantly more than it was worth and not consistent with similar property sales in the
area.

CBP protects our Nation’s borders from terrorism, human and drug smuggling, illegal
migration, and agricultural pests, while simultaneously facilitating the flow of legitimate
travel and trade. As part of CBP, the U.S. Border Patrol’s mission is to detect and
interdict terrorists and weapons of terror while accomplishing traditional missions such as
detecting, apprehending, and deterring smugglers of humans, drugs, and contraband.

In 2006, to improve border security, President George W. Bush called for hiring more
than 6,000 new Border Patrol agents. As a result, the existing Border Patrol facility in
Lordsburg, New Mexico experienced overcrowding. The Lordsburg Border Patrol
facility was originally built to accommodate approximately 50 agents, but in 2009 the
station reached a staffing level of more than 250 agents.

CBP officials decided to replace the existing Lordsburg facility with another facility in
Lordsburg.1 CBP considered building a new facility on the existing site, but the site did
not allow for expansion or the addition of helicopter pads, all-terrain vehicles, and
equestrian services. Also, building on the existing site would have impacted ongoing
Border Patrol operations. Therefore, in May 2006, CBP officials decided to acquire land
in Lordsburg to build a replacement Border Patrol facility.

CBP’s Facilities Management and Engineering Office and its regional facility centers
oversee design and contract preparation for land acquisitions. The Office of Border
Patrol determines operational and mission requirements for new facilities. In real estate
acquisitions, CBP relies on the United States Army Corps of Engineers (USACE) to
provide appraisals, environmental impact evaluations, and other related services.

Based on operational requirements, CBP identified three possible locations for a
replacement Lordsburg Border Patrol facility. All three sites were near freeway
interchanges on the outskirts of Lordsburg. The owners of these three sites were:

    •    U.S. Bureau of Land Management
    •    Hidalgo County
    •    State of New Mexico



1
 We did not evaluate CBP’s process or reasoning used to determine that Lordsburg was the most
appropriate location to build the replacement facility.

        U.S. Customs and Border Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico


                                                   Page 2

CBP officials determined that the site owned by the State of New Mexico was the
preferred location. CBP eliminated the U.S. Bureau of Land Management site from
consideration owing to the lack of utility service and possible groundwater
contamination. According to CBP, these conditions would be expensive to mitigate.
Office of Border Patrol officials determined that the Hidalgo County site was poorly
suited for a Border Patrol station because it is surrounded by highways, a railroad, and
commercial properties, which would limit its privacy and its ability to expand. CBP did
not order appraisals of the value of any of the sites when determining which site was best.
Figure 1 identifies the selected 25-acre parcel as the subject property.




      Figure 1 - Map of the Subject Property and Surrounding Area (Source: Google Maps))

In December 2006, CBP engaged USACE to appraise the value of the selected site.
USACE contracted with a private appraiser, and in December 2006 the appraiser valued
the subject property at $37,500. The New Mexico State Land Office (NMSLO), which
manages land for the State of New Mexico, rejected the appraised value and countered
with an offer of $544,500.

In February 2008, a different appraisal firm completed a second appraisal for USACE
and valued the subject property at $47,500. NMSLO rejected the second offer and
countered with a $1.25 million offer, based on an internal valuation of the property. The
significant difference between the appraised values and the counteroffers was caused by
the appraisers and NMSLO disagreeing on what constituted comparable sales. Some
land in the area sold for $1,000 to $3,000 per acre, while other land sold for $70,000 to
$100,000 per acre.

     U.S. Customs and Border Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico


                                                Page 3

To resolve the valuation difference, CBP held a meeting with the NMSLO and USACE
in June 2008. The meeting participants discussed a tentative price of $750,000 for the
property. In December 2008, a contract appraiser hired by the NMSLO appraised the
property at $750,000. To confirm this value, in January 2009, USACE conducted a third
appraisal that valued the property at $712,500. The appraiser attributed the increase in
appraised value to a number of factors, including a reinterpretation of the highest and best
use from the earlier appraisals. In February 2009, CBP rescinded the first two appraisals
and said that those appraisals misinterpreted key elements of the property. In June 2009,
CBP purchased the 25 acres for $750,000.

Results of Audit
CBP’s decision to build the Border Patrol facility in Lordsburg limited the number of
available properties that could be used for that facility. Although CBP negotiated a price
of $750,000 with the NMSLO, the limited number of properties weakened CBP’s
negotiating position when determining that price. CBP adhered to DHS policies and
procedures when purchasing this land.

Limiting Sites to Lordsburg, NM, Diminished CBP’s Bargaining Position

CBP’s decision to build in Lordsburg limited its options for acceptable properties.
Lordsburg is a small town with only three nearby freeway interchanges from the I-10
interstate. Only two of these interchanges, Exit 20 to the west and Exit 24 to the east,
provide immediate access to undeveloped land (Exit 22 leads directly to Main Street and
the town center). The NMSLO owns a portion of the undeveloped land around Exit 20
and Exit 24, including the subject property. At the time of the purchase, other owners of
nearby undeveloped land included Hidalgo County and the U.S. Bureau of Land
Management. However, CBP determined that the only suitable land was the 25 acres
owned by the NMSLO. As a result, CBP chose to acquire and build the facility on the
subject property.

CBP paid $750,000 for the subject property in Lordsburg after USACE conducted a third
appraisal. However, CBP’s negotiating position was weakened by only seriously
considering one property for purchase. CBP chose to build the new facility in Lordsburg
and determined that only one property in Lordsburg was suitable. Therefore, CBP had no
option but to buy that property at the price that the State of New Mexico wanted.

CBP adhered to federal regulations when negotiating for the land. CBP must follow the
Uniform Relocation Act2 and its implementing regulations when acquiring real property,
such as land and buildings. The implementing regulations allow for negotiation of a
price above the appraised value through an option called an administrative settlement.
According to the implementing regulations:


2
    42 U.S.C. § 4651

         U.S. Customs and Border Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico


                                                    Page 4

       “The purchase price for the property may exceed the amount offered as just
       compensation when reasonable efforts to negotiate an agreement at that amount
       have failed and an authorized Agency official approves such administrative
       settlement as being reasonable, prudent, and in the public interest.”

As described in the implementing regulations, CBP used an administrative settlement to
negotiate a price for the Lordsburg property. According to this process, the Executive
Director of CBP’s Facilities Management and Engineering Office must be satisfied that
the purchase was reasonable, prudent, and in the public best interest.

CBP officials determined that the purchase was—
  •	 Reasonable based on the USACE appraisal valuing the land at $712,500, which
      was within a reasonable amount of the agreed-upon purchase price;
  •	 Prudent because the cost of the land was deemed to be less than the cost, in both
      time and resources, of selecting a new site for the Border Patrol facility; and
  •	 In the public’s best interest because a new Lordsburg Border Patrol facility was
      urgently needed to help reduce overcrowding at the existing Lordsburg facility.

We are not making any recommendations.

Management Comments and OIG Analysis
We obtained written comments to our draft report from the Assistant Commissioner,
Office of Internal Affairs at CBP. We have included a copy of the comments in
Appendix B. CBP generally concurred with the findings in this report. We also
reviewed CBP’s technical comments and made changes where appropriate.




     U.S. Customs and Border Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico


                                                Page 5

Appendix A
Purpose, Scope, and Methodology

                        We conducted this audit to determine whether the amount U.S.
                        Customs and Border Protection (CBP) paid for 25 acres of land
                        purchased from the State of New Mexico was fair, reasonable, and
                        consistent with DHS policies and procedures.

                        We reviewed pertinent records and supporting documentation to
                        address whether the basis, assumptions, and methodology used to
                        purchase the 25 acres of land was in compliance with the Uniform
                        Appraisal Standards for Federal Land Acquisitions and the
                        Uniform Relocation Act. We reviewed planning documents and
                        the three appraisals commissioned by USACE.

                        We interviewed CBP Headquarters officials with the Office of
                        Facilities Management and Engineering and with the Office of
                        Border Patrol to understand CBP’s land acquisition process and
                        CBP’s land appraisal process, with a specific focus on the
                        Lordsburg land acquisition. We visited CBP’s Dallas Facility
                        Center and interviewed CBP staff in charge of the Lordsburg land
                        acquisition. We interviewed USACE officials involved with the
                        Lordsburg land acquisition and obtained their views and opinions
                        regarding the subject appraisal process.

                        We contracted with an independent federal appraiser to conduct a
                        review of two of the appraisals to assess if the appraisals were
                        conducted in accordance with the Uniform Appraisal Standards for
                        Federal Land Acquisitions. The results of this review did not
                        materially affect our conclusions.

                        We performed our audit between December 2009 and August 2010
                        at CBP Headquarters in Washington, DC, and at CBP’s Dallas
                        Facility Center in Dallas, TX. We did not make a site visit to
                        Lordsburg, NM, to view the subject property. We did not evaluate
                        CBP’s site selection process to determine the thoroughness of its
                        search, nor did we attempt to identify other suitable sites that might
                        have been available at the time of purchase.

                        We conducted this audit under the authority of the Inspector
                        General Act of 1978, as amended, and according to generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.


     U.S. Customs and Border Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico


                                                Page 6

Appendix B
Management Comments to the Draft Report




    U.S. Customs and Border Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico

                                               Page 7
Appendix C
Major Contributors to This Report


                        Brooke Bebow, Director
                        Lorinda Couch, Desk Officer
                        Richard Kotecki, Auditor-in-Charge
                        Brian Blaha, Auditor
                        Jeanne Genao, Program Analyst
                        Tristan Weir, Program Analyst
                        Brandon Landry, Independent Referencer




     U.S. Customs and Border Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico

                                                Page 8
Appendix D
Distribution List




                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretariat
                        Director, GAO/OIG Liaison Office
                        Assistant Secretary for Office of Policy
                        Assistant Secretary for Office of Public Affairs
                        Assistant Secretary for Office of Legislative Affairs
                        Commissioner, U.S. Customs and Border Protection
                        CBP Audit Liaison

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as
                        appropriate




     U.S. Customs and Border Protection's Acquisition of 25 Acres of Land in Lordsburg, New Mexico

                                                Page 9
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
